ROB BONTA
Attorney General

State of California
DEPARTMENT OF JUSTICE
455 GOLDEN GATE AVE., STE 11000
SAN FRANCISCO, CA 94102

Telephone: (415) 510-3919
E-Mail: Samuel.Harbourt@doj.ca.gov

August 20, 2021
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

California Trucking Association, Inc. v. Bonta, No. 21-194
Request for Extension of Time

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on August 9, 2021. The
response to the petition is currently due on September 10, 2021. Pursuant to Rule 30.4,
respondents Rob Bonta et al. respectfully request that the time for filing a response be extended
by thirty days, up to and including Monday, October 11, 2021 (because thirty days from
September 10 is October 10, a Sunday). An extension of time would allow for adequate time for
internal review and would better enable preparation of a response that respondent believes would
be most helpful to the Court. In addition, we have already consented to the filing of multiple
amicus briefs in support of petitioner, and counsel for petitioner has informed us that he expects
that a number of entities will seek to file amicus briefs in support of his client. The extension
would allow time to review those briefs and prepare any response to the arguments made in
them. 1
Sincerely,
/s/ Samuel T. Harbourt
SAMUEL T. HARBOURT
Deputy Solicitor General
For

ROB BONTA
Attorney General

Respondents note that another petition presenting the same question is currently pending before
the Court. See Cal Cartage Transportation Express, LLC v. California, No. 20-1453.
1

